Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 MISSOURI STATE MEDICAID 

  FRAUD CONTROL UNIT:

   2011 ONSITE REVIEW





                        Stuart Wright

                  Deputy Inspector General for 

                   Evaluation and Inspections 


                          July 2012 

                        OEI-07-11-00750

EXECUTIVE SUMMARY: 

REVIEW OF MISSOURI STATE MEDICAID FRAUD CONTROL UNIT: 

2011 Onsite Review

OEI-07-11-00750 



WHY WE DID THIS STUDY 


The Office of Inspector General (OIG) oversees all Medicaid Fraud Control Units
(MFCU or Unit) with respect to Federal grant compliance. As part of this oversight, OIG
reviews all Units. These reviews assess Unit performance in accordance with the
12 MFCU performance standards and monitor Unit compliance with Federal grant
requirements. This is a review of the Missouri Unit.

HOW WE DID THIS STUDY

We based our review on an analysis of data from seven sources: (1) a review of policies,
procedures, and documentation of the Unit’s operations, staffing, and caseload;
(2) a review of financial documentation; (3) structured interviews with key stakeholders;
(4) a survey of Unit staff; (5) structured interviews with the Unit’s management; (6) an
onsite review of case files; and (7) an onsite review of Unit operations.

WHAT WE FOUND

For Federal fiscal years (FY) 2008 through 2010, the Missouri Unit reported recoveries
of $135 million, 13 convictions, and 36 civil settlements. The Unit exercised proper
fiscal controls over its resources. The Unit expanded its definition of referrals and
changed its process for closing older cases during FYs 2008 through 2010. It did not
establish annual training plans for its professional disciplines. One-third of case files
lacked documentation of supervisory approval for key stages of the investigation, and
nearly all lacked documentation of periodic supervisory reviews. Finally, the Unit lacked
safeguards to secure case files. At the same time, our review found no evidence of
significant noncompliance with applicable laws, regulations, or policy transmittals.

WHAT WE RECOMMEND

Based on these findings, the Missouri Unit should: (1) establish annual training plans for
professional disciplines, (2) ensure that case files contain documented supervisory
approval and periodic supervisory reviews, and (3) ensure that case files are not
vulnerable to unauthorized access. The Missouri Unit concurred with all of our
recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................7 

           For FYs 2008 through 2010, the Missouri Unit reported 

           recoveries of $135 million, with 13 convictions and 36 civil 

           settlements........................................................................................7 

           The Unit exercised proper fiscal controls over its resources ...........7 

           The Unit expanded its definition of referrals and changed its 

           process for closing older cases during FYs 2008 through 2010 ......7 

           The Unit did not establish annual training plans for the 

           professional disciplines....................................................................9 

           One-third of case files lacked documentation of supervisory 

           approval for key stages of the investigation and nearly all 

           lacked documentation of periodic supervisory reviews. ................10 

           Unit practices leave case files vulnerable to unauthorized access . 11

Conclusion and Recommendations ............................................................12 

Agency Comments and Office of Inspector General Response.................13 

Appendixes ................................................................................................14 

           A: Performance Standards ............................................................14 

           B: Point Estimates and Confidence Intervals Based on 

           Case File Reviews..........................................................................18 

           C: Investigations Opened and Closed by Provider Category,

           FYs 2008 through 2010 .................................................................19 

           D: Agency Comments ...................................................................21 

Acknowledgments......................................................................................25 

                   OBJECTIVE
                   To conduct an onsite review of the Missouri Medicaid Fraud Control Unit
                   (MFCU or Unit).

                   BACKGROUND
                   The mission of State MFCUs, as established by Federal statute, is to
                   investigate and prosecute Medicaid provider fraud and patient abuse and
                   neglect under State law.1 Under the Medicaid statute, each State must
                   maintain a certified Unit unless the Secretary of Health & Human Services
                   (HHS) determines that operation of a Unit would not be cost-effective
                   because (1) minimal Medicaid fraud exists in that State; and (2) the State
                   has other, adequate safeguards to protect Medicaid beneficiaries from
                   abuse and neglect.2 Currently, 49 States and the District of Columbia
                   (States) have created such Units.3 In Federal fiscal year4 (FY) 2010, the
                   combined Federal and State grant expenditures for the Units totaled
                   $205.5 million, of which Federal funds represented $153.8 million.
                   Each Unit must employ an interdisciplinary staff that consists of at least an
                   investigator, an auditor, and an attorney to carry out its duties and
                   responsibilities in an effective and efficient manner.5 The staff reviews
                   complaints provided by the State Medicaid agency and other sources and
                   determines their potential for criminal prosecution. Collectively, in
                   FY 2010, the 50 Units obtained 1,329 convictions and 1,090 civil
                   settlements or judgments.6 That year, the Units reported recoveries of
                   more than $1.9 billion.7, 8



                   1
                     Social Security Act (SSA), § 1903(q)(3).

                   2
                     SSA §§ 1902(a)(61) and 1903(q)(3). Regulations at 42 CFR § 1007.11(b)(1) add that the 

                   Unit’s responsibilities may include reviewing complaints of misappropriation of patients’ 

                   private funds in residential health care facilities.

                   3
                     North Dakota and the territories of American Samoa, Guam, the Northern Mariana Islands, 

                   Puerto Rico, and the U.S. Virgin Islands have not established Units.
                   4
                     All FY references in this report are based on the Federal FY (October 1 through September 

                   30).

                   5
                     SSA § 1903(q)(6) and 42 CFR § 1007.13.

                   6
                     Office of Inspector General (OIG), State Medicaid Fraud Control Units Fiscal Year 2010 

                   Grant Expenditures and Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-
                   control-units-mfcu/ on April 17, 2012.

                   7

                     Ibid.
                   8 Pursuant to 42 CFR § 1007.17, Units report the total amount of recovered funds in their
                   annual reports to OIG. The annual total does not include court-ordered payments not yet
                   received. However, the annual total may include payments ordered in a prior year, because it
                   may take a year or more for a Unit to receive ordered payments.

Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)                               1
                   Units are required to have either statewide authority to prosecute cases or
                   formal procedures to refer suspected criminal violations to an office with
                   such authority.9 In Missouri and 42 other States, the Units are located
                   within offices of State Attorneys General; in the remaining 7 States, the
                   Units are located in other State agencies.10 Generally, Units outside of the
                   Attorneys General offices must refer cases to other offices with
                   prosecutorial authority.
                   Each Unit must be a single, identifiable entity of State government,
                   distinct from the single State Medicaid agency, and each Unit must
                   develop a formal agreement (e.g., a memorandum of understanding) that
                   describes the Unit’s relationship with that agency.11
                   Oversight of the MFCU Program
                   The Secretary of HHS delegated to OIG the authority to both annually
                   certify the Units and to administer grant awards to reimburse States for a
                   percentage of their costs of operating certified Units.12 All Units are
                   currently funded by the Federal Government on a 75-percent matching basis,
                   with the States contributing the remaining 25 percent.13 To receive Federal
                   reimbursement, each Unit must submit an application to OIG.14
                   OIG reviews the application and notifies the Unit if it is approved and the
                   Unit is certified. Approval and certification are for a 1-year period; the Unit
                   must be recertified each year thereafter.15
                   Under the Medicaid statute, States must operate Units that effectively carry
                   out their statutory functions and meet program requirements.16 OIG
                   developed and issued 12 performance standards to define the criteria it
                   applies in assessing whether a Unit is effectively carrying out statutory
                   functions and meeting program requirements.17 Examples of criteria include
                   maintaining an adequate caseload through referrals from several sources,

                   9
                     SSA § 1903(q)(1).

                   10
                      In most States, the Unit shares responsibility for protecting the integrity of the Medicaid 

                   program with the section of the State Medicaid agency that functions as the Program Integrity

                   Unit. Some States also establish an Office of Medicaid Inspector General that conducts and 

                   coordinates fraud, waste, and abuse activities for the State agency.

                   11
                      SSA § 1903(q)(2); 42 CFR §§ 1007.5 and 1007.9(d).

                   12
                      The portion of funds reimbursed to States by the Federal Government for its share of 

                   expenditures for the Federal Medicaid program, including the MFCUs, is called Federal 

                   Financial Participation.

                   13
                      SSA § 1903(a)(6)(B).

                   14
                      42 CFR § 1007.15(a).

                   15
                      42 CFR § 1007.15(b) and (c).

                   16
                      SSA § 1902(a)(61).

                   17
                      59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-
                   control-units-mfcu/files/Performance%20Standards.pdf on November 22, 2011. OIG revised 

                   these standards on June 1, 2012 (see 77 Fed. Reg. 77106). The standards referred to 

                   throughout this report are those from 1994, which were in effect at the time of our review. 


Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)                                 2
                   maintaining an annual training plan for all professional disciplines, and
                   establishing policy and procedure manuals to reflect the Unit’s operations.
                   See Appendix A for a complete list of the performance standards.
                   Missouri State MFCU
                   The Missouri Unit is located within the Public Safety Division of the State
                   Attorney General’s Office. It has authority to prosecute Medicaid fraud
                   and cases of patient abuse and neglect. At the time of our review,18 the
                   Unit’s 21 employees were located in the State capital of Jefferson City.
                   The Missouri Unit was authorized $1.7 million in Federal funds and
                   expended a total of $1.6 million in combined Federal and State funds for
                   FY 2010.19 Total Medicaid expenditures in Missouri increased from
                   $7 billion in FY 2008 to $8.3 billion in FY 2010.20
                   Historically, the Unit received referrals of fraud, abuse, or neglect from
                   the State Medicaid Agency, which included the Program Integrity Unit.
                   Beginning in January 2011, the program integrity function was moved out
                   of the State Medicaid Agency and into the Department of Social Services,
                   Office of the Director, and renamed the Missouri Medicaid Audit and
                   Compliance (MMAC) Unit. The MMAC Unit is now a source of
                   referrals.21 Other sources include calls to the Unit hotline; other State and
                   Federal law enforcement agencies; the State Ombudsman; and the
                   Missouri Department of Health and Senior Services (DHSS), which
                   provides patient abuse referrals. For FYs 2008 through 2010, the Unit
                   received an average of 298 referrals each year.
                   Upon determining that a referral merits a full investigation, the Unit opens
                   a case and assigns an attorney(s) and investigator(s). The Unit may close
                   a case through civil action, criminal prosecution, a determination of
                   insufficient evidence, referral, or other administrative action. With respect
                   to convalescent, nursing, and boarding homes, State law requires that “the
                   attorney general shall review each complaint and may initiate legal
                   action….”22
                   Previous Review
                   In 2005, OIG conducted an onsite review of the Missouri Unit and found
                   that: (1) the Unit lacked a standardized case filing system to identify

                   18
                      Our onsite review occurred in December 2011.
                   19
                      OIG analysis of State Form SF-269 for FY 2010.
                   20
                      Keeping America Healthy. Accessed at http://www.medicaid.gov/ on March 1, 2012.
                   Medicaid Fraud Control Units FY 2010 Statistical Chart. Accessed at http://oig.hhs.gov/ on 

                   March 1, 2012.

                   21
                      The MMAC Unit is responsible for administering and managing Medicaid audit and 

                   compliance initiatives as well as for detecting, investigating, and preventing fraud, waste, and 

                   abuse of the Medicaid program.

                   22
                      Revised Statutes of Missouri § 198.093.2.


Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)                                   3
                   documents within the case file, (2) staff reported some equipment was
                   outdated and additional equipment would be useful, and (3) the Unit
                   charged the MFCU Federal grant for certain non-Medicaid-related
                   activities.23 The Unit responded that it planned to incorporate system
                   features from a neighboring Unit’s case filing system into its system, that
                   equipment would be purchased and upgraded as needed, and that the Unit
                   would seek approval for “de minimus” non-Medicaid-related activities.
                   The current review found no indication that any of these prior issues
                   persist.

                   METHODOLOGY
                   Our review covered the 3-year period of FYs 2008 through 2010. We
                   based our review on an analysis of data from seven sources: (1) a review
                   of policies, procedures, and documentation of the Unit’s operations,
                   staffing, and caseload for FYs 2008 through 2010; (2) a review of
                   financial documentation for FYs 2008 through 2010; (3) structured
                   interviews with key stakeholders; (4) a survey of Unit staff; (5) structured
                   interviews with the Unit’s management; (6) an onsite review of case files
                   that were open in FYs 2008 through 2010; and (7) an onsite review of Unit
                   operations. Although interview and survey respondents may have
                   provided information that fell outside of our 3-year review period, we used
                   this information to explain further the results of our analyses covering
                   FYs 2008 through 2010.
                   We analyzed data from all seven sources to describe the caseload and
                   assess the performance of the Unit. We also analyzed the data to identify
                   any opportunities for improvement and any instances in which the Unit
                   did not fully meet the performance standards or was not operating in
                   accordance with laws, regulations, and policy transmittals.24
                   Data Collection and Analysis
                   Review of Unit Documentation. We requested and reviewed policies,
                   procedures, documentation of the Unit’s operations, staffing, and cases,
                   including its annual reports, quarterly statistical reports, and responses to
                   recertification questionnaires. We also requested and reviewed the Unit’s
                   data describing how it detects, investigates, and prosecutes Medicaid
                   cases. Data collected included information such as the number of referrals
                   received by the Unit and the number of investigations opened and closed.

                   23
                      A programmer analyst assisted in the development of a computerized case-tracking system
                   and monthly time log database for use by all staff in the Office of Attorney General. An
                   auditor spent 4 days completing an assignment involving gasoline price gouging.
                   24
                      All relevant regulations, statutes, and policy transmittals are available online at
                   http://oig.hhs.gov.

Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)                            4
                   Review of Financial Documentation. We reviewed Unit policies and
                   procedures related to budgeting, accounting systems, cash management,
                   procurement, property, and personnel to evaluate internal controls and
                   design our tests for financial documentation. We obtained from the Unit
                   its claimed grant expenditures for FYs 2008 through 2010 to: (1) review
                   final Federal Status Reports and the supporting documentation,
                   (2) purposively select and review transactions within direct cost categories
                   to determine whether costs were allowable, and (3) verify that indirect
                   costs were accurately computed using the approved indirect cost rate.
                   Finally, we reviewed records in the Payment Management System and
                   revenue accounts to identify any unreported program income.
                   Interviews With Key Stakeholders. We conducted structured interviews
                   with key stakeholders who were familiar with the operations of the Unit.
                   Specifically, we interviewed the director of the MMAC Unit, the director
                   of DHSS’s Division of Regulation & Licensure, and the director of
                   DHSS’s Senior & Disability Services. Additionally, we interviewed the
                   Special Agent in Charge and Assistant Special Agents in Charge for
                   OIG’s Kansas City region. These interviews focused on the Unit’s
                   interaction with external agencies.
                   Survey of Unit Staff. We administered an electronic survey of all
                   nonmanagerial Unit staff. We requested and received responses from each
                   of the 16 nonmanagerial staff members, for a 100-percent response rate.
                   Our questions focused on operations of the Unit, opportunities for
                   improvement, and noteworthy practices of the Unit. The survey also
                   sought information about the Unit’s compliance with applicable laws and
                   regulations.
                   Interviews With Unit Management and Staff. We conducted structured
                   interviews with the Unit’s director, deputy director (chief attorney), chief
                   investigator, and chief auditor. We met with the computer programmer
                   who demonstrated how the Unit retrieves and analyzes Medicaid claims
                   data. We asked these managers and staff members to provide us with
                   additional information to better illustrate the Unit’s operations, identify
                   opportunities for improvement and noteworthy practices, and clarify
                   information obtained from other data sources.
                   Onsite Review of Case Files. We selected a statistically valid, simple
                   random sample of 98 case files from the 508 cases that were open at some
                   point during FYs 2008 through 2010, which were the most recent
                   complete FYs at the beginning of our review. We reviewed these 98 case
                   files for documentation of supervisory approval for the opening and
                   closing of cases, documented periodic supervisory reviews, timeliness of
                   case development, and the Unit’s processes for monitoring the status and

Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)                  5
                   outcomes of cases. See Appendix B for sample sizes and 95-percent
                   confidence intervals associated with point estimates.
                   Onsite Review of Unit Operations. While onsite, we reviewed the Unit’s
                   operations. Specifically, we observed intake of referrals, data analysis
                   operations, security of data and case files, and the general functioning of
                   the Unit.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)                 6
                   FINDINGS
                   For FYs 2008 through 2010, the Missouri Unit reported
                   recoveries of $135 million, with 13 convictions and
                   36 civil settlements
                   Unit recoveries included $134 million in civil cases (i.e., actions involving
                   monetary settlements and court orders) and $695,437 in criminal cases.
                   The Unit placed a heavy emphasis on negotiating cases under the Missouri
                   civil false claims act. As part of these civil actions, the Unit pursued
                   agreements with providers to immediately surrender their legal rights to
                   participate in the Medicaid program without being subject to mandatory
                   exclusion by OIG.25 Of the 508 cases open at some point during
                   FYs 2008 through 2010, 91 percent (463 cases) were charged as civil
                   cases and 9 percent (45 cases) as criminal cases. Charging decisions were
                   made after an investigation was at or very near completion. The Unit also
                   reported filing felony charges against 20 defendants and separately
                   obtaining 13 convictions and 36 civil settlements during our 3-year review
                   period. There were no acquittals and only one dismissal. See Appendix C
                   for details on investigations opened and closed by provider category for
                   FYs 2009 through 2011.

                   The Unit exercised proper fiscal controls over its
                   resources
                   According to Performance Standard 11, the Unit should exercise proper
                   fiscal control over its resources. For FYs 2008 through 2010, the Unit
                   claimed expenditures that represented allowable, allocable, and reasonable
                   costs in accordance with applicable Federal regulations. In addition, the
                   Unit maintained adequate internal controls relating to accounting,
                   budgeting, personnel, procurement, property, and equipment.

                   The Unit expanded its definition of referrals and
                   changed its process for closing older cases during
                   FYs 2008 through 2010
                   According to Performance Standard 4, the Unit should maintain an
                   adequate workload through referrals from the single State agency and
                   other sources. The Unit should also have a continuous case flow. As
                   noted in the background of this report, the Unit receives referrals from the

                   25
                      Exclusions would prevent providers from committing future fraud in their current State and
                   other States by restricting their participation in the Medicaid and other Federal health care
                   programs.

Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)                               7
                   State Medicaid Agency, the Unit hotline, and a variety of other sources
                   such as other law enforcement agencies and other State agencies. For
                   FYs 2008 through 2010, the number of referrals increased by 240 percent
                   (from 123 to 418, see Table 1). To explain this dramatic increase, the Unit
                   manager explained that beginning in October 2008, Unit management
                   began counting and tracking all Medicaid Program agencies’ referrals,
                   MFCU hotline calls, and all case leads as “referrals,” based on a
                   recommendation from the State Auditor. Previously, the Unit would
                   consider a complaint as a referral only if a case was opened. Additionally,
                   Unit management stated that prior to January 2011, allegations received
                   from private attorneys alleging abuse were opened directly into cases,
                   skipping the referral stage. Leads which were deemed as unsubstantiated
                   and warranted no further investigation were not counted as referrals.
                   Finally, managers attributed part of the increase in fraud referrals to
                   enhanced outreach efforts and improved communication with key
                   stakeholders (i.e., the State Medicaid Agency and the MMAC Unit).

                   Table 1: Unit Referrals for FYs 2008 Through 2010, by Type

                   Type                                       FY 2008             FY 2009          FY 2010

                   Fraud                                             58                 131           182

                   Patient Abuse and Neglect
                                                                     65                 221           236
                   (Includes Patient Funds Cases)

                        Total                                       123                 352           418

                  Source: OIG analysis of Missouri MFCU Quarterly Statistical Report data, 2012.


                   When a referral is received, a preliminary investigation is conducted to
                   determine if opening a case is merited. Multiple referrals may result in
                   one opened case, a referral may lead to multiple open cases, or the Unit
                   may decide not to open cases based on the quality of the referrals. The
                   Unit may also forward a referral to another agency.
                   For FYs 2008 through 2010, the number of cases opened by the Unit
                   decreased by 16 percent. In FY 2008, the Unit opened 125 cases,
                   compared to 105 in FY 2010.26 (See Table 2.) Unit management
                   attributed the decrease to the Unit’s streamlining of its case opening,
                   referral intake, and investigative processes. Unit management attributed
                   further reductions to conducting more investigative work at the referral
                   stage to avoid opening nonmeritorious cases.




                   26
                        Outside of our review period, the Unit reported opening 176 cases in FY 2011.

Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)                             8
                   Table 2: Cases Opened for FYs 2008 Through 2010, by
                   Type*

                   Type of Investigation                    FY 2008       FY 2009   FY 2010

                   Fraud                                             59       42        69

                   Patient Abuse and Neglect
                                                                     66       51        36
                   (Includes Patient Funds Cases)

                      Total                                      125          93       105
                 *Includes only new cases opened during the FY.
                 Source: OIG analysis of Missouri MFCU data, 2012.



                   The Unit may close a case through civil action, criminal prosecution, a
                   determination of insufficient evidence, referral, or other administrative
                   action. For FYs 2008 through 2010, the number of cases closed by the
                   Unit decreased by 48 percent. In FY 2008, the Unit closed 185 cases,
                   compared to 97 in FY 2010. (See Table 3.)
                   Managers explained the decline in case closings as follows. In early 2008,
                   Unit management determined that Unit productivity would be enhanced
                   by reducing the number of older, open cases and focusing unit resources
                   on newer cases and investigations. This process resulted in administrative
                   closures of more than 100 older files in approximately 2 months. These
                   cases had an average age of over 3 years. Their closure caused the
                   average age of cases closed by the MFCU to fall to just over 1 year. See
                   Appendix C for information about the Unit’s cases by provider category.

                   Table 3: Cases Closed for FYs 2008 Through 2010, by Type

                   Type of Investigation                    FY 2008       FY 2009   FY 2010

                   Fraud                                         113           48       58

                   Patient Abuse and Neglect
                                                                     72        59       39
                   (Includes Patient Funds Cases)

                      Total                                      185          107       97

                                                                 .
                  Source: OIG analysis of Missouri MFCU data, 2012



                   The Unit did not establish annual training plans for the
                   professional disciplines
                   According to Performance Standard 12, the Unit should establish annual
                   training plans for each professional discipline. The training provided
                   should aid in the mission of the Unit. At the time of our onsite review,
                   managers reported that they had not established annual training plans for




Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)               9
                   any of the three professional disciplines (i.e., auditor, investigator, and
                   attorney).27 Rather, staff are sent to training as opportunities arise.
                   All new hires in the Missouri Unit are required to attend in-house training
                   conducted by the chief investigator and the Unit attorneys, and separate
                   training conducted by the National Association of Medicaid Fraud Control
                   Units (NAMFCU) on Health Care Fraud/Patient Abuse and Neglect. All
                   MFCU attorneys are required to complete 15 hours of Continuing Legal
                   Education per year. Investigators receive ongoing in-house training and
                   are sent to the Medicaid Fraud 101 and 102 courses, sponsored by
                   NAMFCU, as openings allow. Sixty-two percent of staff stated that they
                   have adequate training to perform their jobs.
                   Several managers reported that few training opportunities have been
                   available for staff in recent years. The managers acknowledged the
                   challenge of identifying and accessing training opportunities to fit the
                   unique needs of their staff. Managers also requested reinstatement of the
                   multidisciplinary biennial conferences formerly provided by OIG.
                   After the onsite review, the Unit began work on an annual training plan for
                   new and established employees in the investigative, audit, and legal
                   disciplines. The Unit shared a preliminary draft of the training plan during
                   the writing of this report.

                   One-third of case files lacked documentation of
                   supervisory approval for key stages of the
                   investigation and nearly all lacked documentation of
                   periodic supervisory reviews
                   According to Performance Standard 6, the Unit should complete cases
                   within a reasonable timeframe. As a part of this effort, managers should
                   approve the opening and closing of cases and document any supervisory
                   case reviews in the case file. Thirty-three percent of all case files were
                   missing documented supervisory approval for the opening of
                   investigations and 1 percent of the closed case files did not include
                   documented supervisory approval detailing the case closure. Unit
                   management explained that prior to October 2008, referrals from State
                   agencies were considered “preliminarily verified and therefore skipped the
                   referral stage, and were directly opened into complaints. Thus no separate
                   documentation indicated supervisory openings of such matters as none

                   27
                      Although we reviewed training records, we did not evaluate the staff’s professional
                   qualifications. Rather, we applied the performance standards to evaluate whether the Unit
                   maintained a formal training plan for each professional discipline and assessed training
                   opportunities specific to Unit operations. We recognize that attorneys, investigators, and
                   auditors receive professional and law enforcement training, and that the lack of an annual
                   training plan does not suggest that professional staff are unqualified.

Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)                                10
                   was needed—such openings were a matter of policy, not individual
                   supervisory authorization.” Unit management further informed us that
                   prior to January 2011, all allegations of resident abuse were handled
                   similarly without documentation reflecting supervisory approval for
                   opening cases.28
                   Performance Standard 6 also states that supervisory reviews should be
                   conducted periodically and noted in the case file. Overall, only 3 percent
                   of the case files contained any documentation of periodic supervisory
                   reviews.29 The Unit director explained that attorney reviews of
                   investigations typically consist of conversations between attorneys and
                   investigators that occur approximately every 2 weeks. These
                   conversations were not documented and were thus not inserted in the case
                   files. The Unit director typically meets with the attorneys once per month
                   and documents the meeting in a case log report, but this is not typically
                   inserted into the case files.
                   Finally, 11 percent of case files were not opened within 60 days of receipt
                   and another 7 percent of case files had no record of the amount of time
                   from receipt to opening. Delays were outside of the Unit’s control in only
                   a limited number of instances.

                   Unit practices leave case files vulnerable to
                   unauthorized access
                   According to Performance Standard 1, a Unit will be in conformance with
                   all applicable statutes, regulations, and policy transmittals, including
                   regulations regarding the security of case files (i.e., 42 CFR
                   § 1007.11(f)). During our onsite review, we observed unit practices that
                   left case files vulnerable to unauthorized access.
                   After the onsite review, the Unit implemented a plan to prevent
                   unauthorized access to case files.




                   28
                      All but one of the cases missing supervisory approval for opening fit within the internal
                   practices the Unit established.
                   29
                      For the purposes of this report, supervisory approval to open and close a case does not
                   constitute a case file review. Periodic supervisory review indicates that a supervisor reviewed
                   a case more than once between its opening and closing.

Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)                               11
                   CONCLUSION AND RECOMMENDATIONS
                   For FYs 2008 through 2010, the Unit obtained 13 criminal convictions and
                   36 civil settlements, and reported recoveries of $134 million in civil cases
                   and $695,437 in criminal cases. Providers who settle civilly are not
                   subject to mandatory exclusion by OIG. Exclusions would prevent
                   providers from committing future fraud by restricting their participation in
                   the Medicaid program.
                   Although the Unit maintained proper fiscal controls over its resources, our
                   review found opportunities for improvement and instances in which the
                   Unit did not fully meet the performance standards. Specifically, the Unit
                   did not establish annual training plans, and its case files lacked
                   documentation of supervisory approval for key stages of the investigation
                   and periodic supervisory reviews. Additionally, the Unit lacked
                   safeguards to secure case files. At the same time, our review found no
                   evidence of significant noncompliance with applicable laws, regulations,
                   or policy transmittals.
                   Based on these findings, we recommend that the Missouri Unit:
                   Establish Annual Training Plans for Professional Disciplines
                   The Unit should develop formal training plans that indicate the type and
                   duration of training expected each year for employees in each professional
                   discipline. The Unit may work with NAMFCU or OIG to identify
                   additional relevant training opportunities for staff.
                   After our onsite review, the Unit began work on an annual training plan
                   for new and established employees in the investigative, audit, and legal
                   disciplines. The Unit shared a preliminary draft of the training plan while
                   this report was being written.
                   Ensure That Case Files Contain Documented Supervisory
                   Approval and Documented Periodic Supervisory Reviews
                   The Unit should make use of its newly developed formal investigative
                   checklist tool to ensure that case openings are approved by supervisors.
                   Unit managers should place documentation of all supervisory reviews in
                   the case files. This will assist in evaluating the timeliness of investigation,
                   prosecution, and closure of cases.
                   Ensure That Case Files Are Not Vulnerable to Unauthorized
                   Access




Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)               12
                   UNIT COMMENTS
                   With regard to our first recommendation, the Unit is implementing a
                   MFCU Training Policy, including annual plans. Annual training plans will
                   be formulated for individual employees and for disciplines.
                   With regard to our second recommendation, the Unit’s case management
                   system will require automated documentation of supervisory reviews of
                   each case for insertion into each case file. All case openings will be
                   approved in writing.
                   With regard to our third recommendation, the Unit has addressed potential
                   access issues by ensuring all case files will be maintained in locked file
                   cabinets; lockable desk drawers; and a secure, locked key-coded evidence
                   room.
                   The full text of the Unit’s comments is provided in Appendix D. We did
                   not make any changes to the report based on the Unit’s comments.




Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)            13
                   APPENDIX A
                   Performance Standards
                   1. 	A Unit will be in conformance with all applicable statutes,
                       regulations and policy transmittals. In meeting this standard, the
                       Unit must meet, but is not limited to, the following requirements:
                       a.	 The Unit professional staff must consist of permanent employees
                           working full-time on Medicaid fraud and patient abuse matters.
                       b.	 The Unit must be separate and distinct from the single State
                           Medicaid agency.
                       c.	 The Unit must have prosecutorial authority or an approved formal
                           procedure for referring cases to a prosecutor.
                       d.	 The Unit must submit annual reports, with appropriate 

                           certifications, on a timely basis.

                       e.	 The Unit must submit quarterly reports on a timely basis.
                       f.	 The Unit must comply with the Americans with Disabilities Act,
                           the Equal Employment opportunity requirements, the Drug Free
                           workplace requirements, Federal lobbying restrictions, and other
                           such rules that are made conditions of the grant.
                   2. 	A Unit should maintain staff levels in accordance with staffing
                       allocations approved in its budget. In meeting this standard, the
                       following performance indicators will be considered:
                       a.	 Does the Unit employ the number of staff that was included in the
                           Unit's budget as approved by the OIG?
                       b.	 Does the Unit employ the number of attorneys, auditors, and
                           investigators that were approved in the Unit's budget?
                       c.	 Does the Unit employ a reasonable size of professional staff in
                           relation to the State's total Medicaid program expenditures?
                       d.	 Are the Unit office locations established on a rational basis and are
                           such locations appropriately staffed?
                   3. 	A Unit should establish policies and procedures for its operations,
                       and maintain appropriate systems for case management and case
                       tracking. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit have policy and procedure manuals?
                       b.	 Is an adequate, computerized case management and tracking
                           system in place?

Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)              14
                   4. 	A Unit should take steps to ensure that it maintains an adequate
                       workload through referrals from the single State agency and other
                       sources. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit work with the single State Medicaid agency to
                           ensure adequate fraud referrals?
                       b.	 Does the Unit work with other agencies to encourage fraud 

                           referrals? 

                       c.	 Does the Unit generate any of its own fraud cases?
                       d.	 Does the Unit ensure that adequate referrals of patient abuse
                           complaints are received from all sources?
                   5. 	A Unit’s case mix, when possible, should cover all significant
                       provider types. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit seek to have a mix of cases among all types of
                           providers in the State?
                       b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                           patient abuse cases?
                       c.	 Does the Unit seek to have a mix of cases that reflect the 

                           proportion of Medicaid expenditures for particular provider 

                           groups? 

                       d.	 Are there any special Unit initiatives targeting specific provider
                           types that affect case mix?
                       e.	 Does the Unit consider civil and administrative remedies when
                           appropriate?
                   6. 	A Unit should have a continuous case flow, and cases should be
                       completed in a reasonable time. In meeting this standard, the
                       following performance indicators will be considered:
                       a.	 Is each stage of an investigation and prosecution completed in an
                           appropriate time frame?
                       b.	 Are supervisors approving the opening and closing of 

                           investigations?

                       c.	 Are supervisory reviews conducted periodically and noted in the
                           case file?
                   7. A Unit should have a process for monitoring the outcome of cases.
                      In meeting this standard, the following performance indicators will be
                      considered:

Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)                15
                       a.	 The number, age, and type of cases in inventory.
                       b.	 The number of referrals to other agencies for prosecution.
                       c.	 The number of arrests and indictments.
                       d.	 The number of convictions.
                       e.	 The amount of overpayments identified.
                       f.	 The amount of fines and restitution ordered.
                       g.	 The amount of civil recoveries.
                       h.	 The numbers of administrative sanctions imposed.
                   8. 	A Unit will cooperate with the OIG and other federal agencies,
                       whenever appropriate and consistent with its mission, in the
                       investigation and prosecution of health care fraud. In meeting this
                       standard, the following performance indicators will be considered:
                       a.	 Does the Unit communicate effectively with the OIG and other
                           Federal agencies in investigating or prosecuting health care fraud
                           in their State?
                       b.	 Does the Unit provide OIG regional management, and other
                           Federal agencies, where appropriate, with timely information
                           concerning significant actions in all cases being pursued by the
                           Unit?
                       c.	 Does the Unit have an effective procedure for referring cases,
                           when appropriate, to Federal agencies for investigation and other
                           action?
                       d.	 Does the Unit transmit to the OIG, for purposes of program
                           exclusions under section 1128 of the Social Security Act, reports
                           of convictions, and copies of Judgment and Sentence or other
                           acceptable documentation within 30 days or other reasonable time
                           period?
                   9. 	A Unit should make statutory or programmatic recommendations,
                       when necessary, to the State government. In meeting this standard,
                       the following performance indicators will be considered:
                       a.	 Does the Unit recommend amendments to the enforcement
                           provisions of the State's statutes when necessary and appropriate to
                           do so?
                       b.	 Does the Unit provide program recommendations to single State
                           agency when appropriate?



Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)               16
                       c.	 Does the Unit monitor actions taken by State legislature or State
                           Medicaid agency in response to recommendations?
                    10. 	A Unit should periodically review its memorandum of
                         understanding (MOU) with the single State Medicaid agency and
                         seek amendments, as necessary, to ensure it reflects current law
                         and practice. In meeting this standard, the following performance
                         indicators will be considered:
                       a.	 Is the MOU more than 5 years old?
                       b.	 Does the MOU meet Federal legal requirements?
                       c.	 Does the MOU address cross-training with the fraud detection staff
                           of the State Medicaid agency?
                       d.	 Does the MOU address the Unit’s responsibility to make program
                           recommendations to the Medicaid agency and monitor actions
                           taken by the Medicaid agency concerning those recommendations?
                   11. 	The Unit director should exercise proper fiscal control over the
                        Unit resources. In meeting this standard, the following performance
                        indicators will be considered:
                       a.	 Does the Unit director receive on a timely basis copies of all fiscal
                           and administrative reports concerning Unit expenditures from the
                           State parent agency?
                       b.	 Does the Unit maintain an equipment inventory?
                       c.	 Does the Unit apply generally accepted accounting principles in its
                           control of Unit funding?
                   12. 	A Unit should maintain an annual training plan for all
                        professional disciplines. In meeting this standard, the following
                        performance indicators will be considered:
                       a.	 Does the Unit have a training plan in place and funds available to
                           fully implement the plan?
                       b.	 Does the Unit have a minimum number of hours training
                           requirement for each professional discipline, and does the staff
                           comply with the requirement?
                       c.	 Are continuing education standards met for professional staff?
                       d.	 Does the training undertaken by staff aid to the mission of the
                           Unit?




Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)               17
                    APPENDIX B
                    Point Estimates and Confidence Intervals Based on Case File
                    Reviews
                    We calculated confidence intervals for key data points for the case file
                    reviews. The sample sizes, point estimates, and 95-percent confidence
                    intervals are given for each of the following:


Table B-1: Confidence Intervals for Case File Review Data
                                                                     Point
                                               Sample                                     95-Percent Confidence
 Data Element Description                                         Estimate
                                                 Size                                                   Interval
                                                              (percentage)
 Case files did not include
 documented supervisory approval                     98                   32.7                        24.8–41.6
 for the opening of investigations.
 Case files did not include
 documented supervisory approval                     87                    1.1                           0.2–6.6
 for the closing of investigations.

 Cases were not opened within
                                                     98                   11.2                          6.7–18.3
 60 days of receipt.

 The amount of time from receipt
 of referral to case opening could                   98                    7.1                          3.7–13.5
 not be determined.

 Case files included documented
                                                     98                    3.1                           1.1–8.3
 periodic supervisory reviews.
Source: Office of Inspector General analysis of Medicaid Fraud Control Unit case files, 2012.




Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)                              18
                      APPENDIX C
                      Investigations Opened and Closed by Provider Category for
                      FYs 2008 Through 2010
Table C-1: Fraud Investigations

 Provider Category                                     FY 2008              FY 2009              FY 2010
 Facilities                                     Opened      Closed     Opened        Closed   Opened   Closed
     Hospitals                                          5         1            2         3         2        3
     Nursing Facilities                                 0         2            1         0         1        2
     Other Long-Term Care Facilities                    0         0            0         0         0        0
     Substance Abuse Treatment
                                                        0         0            0         0         0        0
     Centers
     Other                                              4         8          11          3         5        6
 Practitioners                                  Opened      Closed     Opened        Closed   Opened   Closed
    Doctors of Medicine or
                                                        2         12           3         3         4        2
    Osteopathy
    Dentists                                            2         2            2         2         7        7
     Podiatrists                                        0         0            1         0         1        0
     Optometrists/Opticians                             1         1            0         0         0        0
     Counselors/Psychologists                           8        23            5         6         1        7
     Other                                              2         1            0         4         2        1
 Medical Support                                Opened      Closed     Opened        Closed   Opened   Closed
     Pharmacies                                         4        14            0         0         5        3
     Pharmaceutical Manufacturers                       7         8            9         4        17       12
     Durable Medical Equipment
                                                        1         0            0         2         2        2
     and/or Supplies
     Labs                                               0         0            1         1         1        0
     Transportation Services                            0         2            1         0         0        1
     Home Health Care Agencies                         16        13            0        13        11        6
     Home Health Care Aides                             4        11            1         1         1        1
     Nurses, Physician Assistants,
     Nurse Practitioners, Certified                     1         1            0         1         0        0
     Nurse Aides
     Radiologists                                       0         0            0         0         0        0
     Medical Support—Other                              2         0            5         5         4        3
 Program Related                                Opened      Closed     Opened        Closed   Opened   Closed
     Managed Care                                       0        12            0         0         0        0
     Medicaid Program
                                                        0         0            0         0         0        0
     Administration
     Billing Company                                    0         1            0         0         0        1
     Other                                              0         1            0         0         5        1
      Total of All Provider
                                                       59        113         42         48        69       58
      Categories
Source: Missouri Medicaid Fraud Control Unit (Unit).




  Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)                         19
Table C-2: Patient Abuse, Neglect, and Funds Investigations

  Provider Category                              FY 2008                  FY 2009               FY 2010
                                            Opened      Closed      Opened          Closed   Opened   Closed
     Nursing Facility                              53         51           40          48        32       30
     Nondirect Care                                 1           5            1          1         0        0
     Other Long-Term Care                           2           2            2          3         1        3
     Registered/Licensed
     Nurses/Physician’s                             0           0            0          0         0        0
     Assistants/Nurse Practitioners
     Certified Nurse Aides                          0           0            0          0         0        0
     Home Health Aides                              0           9            1          1         1        0
     Other                                         10           5            7          6         2        6
       Total                                       66         72           51          59        36       39
 Source: Missouri Unit.




 Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)                         20
                   APPENDIX D
                   Agency Comments




Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)   21
Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)   22
Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)   23
                     E nsure Tbat Case Files
                                       " -
                                             Are
                                             '.,
                                                 Not Vulnerable to Unauthorized
                                                                      .   .


                     Response: We concur with this recommendation. Potential access issues have been
              addressed by assuring that case files are secured in locked file cabinets or our key-coded
              evidence room.

                      Analysis: MFCU acknowledges the importance of securing potentially sensitive records
              and materials including our work product and potential confidential materials obtained in
              investigations and cases.

                      Plan: Since the review period, lockable file cabinets, lockable desk drawers and a
              secure, locked key-coded evidence room have provided us the opportunity to secure all case files
              and ensure confidential material is secure.

                       MFCU policy makes clear all employees' obligation to protect not only our work
              product, but also patient and provider confidentiality as required by law. Compliance will be
              strictly enforced.

                     Conclusion

                     The Missouri MFCU appreciates the efforts of HHS-OIG and the consultations provided
              by the Onsite Review. We understand and concur with the recommendations, which will be
              implemented as our electronic MFCU case management system is completed.

                    As the statistics you note demonstrate, MFCU has achieved cost effective protection of
              the Medicaid Program over the course of the review period. We have continued to improve both
              on our record of recovery and our prosecutorial successes and will implement the
              recommendations you have made in a manner consistent with our mission.

                                                          Respectfully submitted,


                                                                 /S/
                                                          Josepli P:13indbeutel
                                                          Assistant Attorney General
                                                          Director, Medicaid Fraud Control Unit




                                                             4




Missouri State Medicaid Fraud Control Unit: 2011 Onsile Review (OEI-07-11-00750)                                 24
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Brian T. Pattison, Regional
                   Inspector General for Evaluation and Inspections in the Kansas City
                   regional office.
                   Brian T. Whitley served as the team leader for this study. Other Office of
                   Evaluation and Inspections staff who conducted the study include
                   Michael J. Brown, Susan Burbach, and Teresa Dailey. Office of Audit
                   Services staff who conducted the study include Ann Lowe and Julie Wiser.
                   Office of Investigations staff who conducted the study include Margaret
                   Walker. Central office staff who provided support include Kevin Farber,
                   Ryan Moul, Debra Roush, Richard Stern, and Jason Weinstock.




Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-07-11-00750)           25
                Office of Inspector General

                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
